                   Audit of Noncompliance With Cost
                Accounting Standard 409, Depreciation of
                        Tangible Capital Assets

                               September 2004

                     Reference Number: 2004-1C-180




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                                   September 27, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                         Daniel R. Devlin
                                     Assistant Inspector General for Audit (Headquarters Operations
                                     and Exempt Organizations Programs)

       SUBJECT:                      Audit of Noncompliance With Cost Accounting Standard 409,
                                     Depreciation of Tangible Capital Assets (Audit #20041C0250)


       The Defense Contract Audit Agency (DCAA) performed an examination regarding the
       contractor’s compliance with the Cost Accounting Standards (CAS).1 The purpose of
       the examination was to determine whether the contractor had complied with the
       requirements of CAS 409, Depreciation of Tangible Capital Assets. By performing
       Federal Government contracts covered by Government regulations, the contractor
       asserts that its accounting practices comply with the requirements of the CAS.
       The DCAA considers the contractor’s accounting system and related internal controls to
       be generally adequate for accumulating and reporting costs on Government contracts.
       However, the DCAA examination disclosed that the contractor is in noncompliance with
       the requirements of CAS 409 during the period January 2001 through February 2002.
       The examination disclosed the following deficiencies: lack of written policies and
       procedures for determining residual value, lack of useful life study and physical
       inventory on tangible capital assets, and failure to credit gains for disposition of tangible
       capital assets to appropriate expense pool. The DCAA indicated that failure to comply
       with the CAS and failure to follow a disclosed practice may have resulted or may result
       in increased cost paid by the Government.

       1
        The DCAA also performed a follow-up audit of the contractor’s compliance with CAS 409 to address the issues
       discussed in this report. The follow-up audit report is entitled, Follow-up Audit of Cost Accounting Standard 409,
       Depreciation of Tangible Capital Assets (Reference Number 2004-1C-181, dated September 2004).
                                            2




The DCAA report is limited to an examination of the cited instances of noncompliance.
Accordingly, the DCAA expresses no opinion whether other practices are proper,
approved, or agreed to for pricing proposals, accumulating costs, or reporting contractor
performance data.
Although this report was dated October 2003, we did not receive a copy of the report
until September 2004. Neither the Internal Revenue Service (IRS) nor the Treasury
Inspector General for Tax Administration (TIGTA) are shown on the DCAA report
distribution list. We are transmitting the report to you to assist in the management of the
contract and to enable the IRS to track any financial accomplishments derived from
negotiations with the contractor based on results from the DCAA report.
The information in this report should not be used for purposes other than those intended
without prior consultation with the TIGTA regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                     The TIGTA seal was removed due to its size.
